U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


  VIRGIN ISLANDS NATIONAL GUARD,
 GOVERNMENT OF THE VIRGIN ISLANDS


             REPORT NO. 99-I-364
                MARCH 1999
                                                                           V-IN-VIS-005-98

              United States Department of the Interior
                             OFF’ICE OF INSPECTOR GENERAL
                                     Washington, DC 20240



                                                                        MAR 261999

                                 AUDIT REPORT
Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Lieutenant General Russell Davis
Chief, National Guard Bureau
Department of the Army
111 South George Mason Drive
Arlington, Virginia 22204

Subject:    Audit Report on the Virgin Islands National Guard, Government of the Virgin
            Islands (No. 99-I-364)

Dear Governor Tumbull and Lieutenant General Davis:

This report presents the results of our limited review of payroll expenses of and lease fee
collections by the Virgin Islands National Guard, Government of the Virgin Islands. The
objective of our review, which was requested by the National Guard Bureau, U.S.
Department of Defense, was to determine whether (1) members of the Virgin Islands
National Guard who were also Virgin Islands police officers received dual compensation for
active duty time after Hurricane Marilyn and (2) lease fees collected by the Virgin Islands
National Guard for use of the Lionel A. Jackson Armory on St. Croix by nonprofit entities
were adequately controlled and accounted for.

BACKGROUND

The Virgin Islands National Guard was established in 1973 pursuant to Title 23, Chapter 19,
of the Virgin Islands Code. The National Guard’s mission is to assist local civil authorities
in the event of natural disasters, civil disturbances, and/or other emergencies. The National
Guard may also be called to active duty as a part of the United States armed forces in the
event of a national security need. The Governor of the Virgin Islands is the Commander in
Chief of the National Guard and, among other duties, nominates to the President of the
United States candidates to serve as the Adjutant General of the National Guard. By
Executive Order dated October 10,1987, the Governor established the Office of the Adjutant
General as the oversight agency for the Virgin Islands National Guard and the Virgin Islands
Territorial Emergency Management Agency.
On September 14, 1995, the Governor mobilized the National Guard into territorial active
duty as an emergency protective measure to maintain the health, welfare, and safety of
Virgin Islands residents because of the potential danger posed by Hurricane Marilyn as it
approached the islands. The hurricane struck the Virgin Islands on September 15. At that
time, theNational Guard had 790 members, of which 37 were full-time police officers (19 on
St. Thomas and 18 on St. Croix). Of the 37 police officers, 10 (8 on St. Thomas and 2 on
St. Croix) were placed on territorial active duty status as a result of the hurricane. The
National Guard remained on territorial active duty for at least 8 weeks after the hurricane.

The Lionel A. Jackson Armory on St. Croix is a Federally owned facility, the use of which
has been licensed to the Government of the Virgin Islands for Virgin Islands National Guard
purposes for a period of 50 years, ending June 2036. The license has conditions, among
others, that (1) the Government of the Virgin Islands will share (75 percent Federal and 25
percent local) in the cost of operating and maintaining the Armory and (2) the Virgin Islands
National Guard, with concurrence from the National Guard Bureau, may issue licenses to
allow the short-term use of Armory facilities, such as meeting rooms, for government and
nonprofit community service activities.

SCOPE OF AUDIT

The scope of the audit was limited to reviewing (1) payroll transactions related to Virgin
Islands National Guard members who were also police officers during the period of
September to November 1995 and (2) lease fee collections by the Virgin Islands National
Guard for the use ofthe Lionel A. Jackson Armory by nonmilitary entities during fiscal years
1995 through 1998. Our review was conducted at the offices of the Virgin Islands National
Guard, the Virgin Islands Police Department, and the Virgin Islands Department of Finance.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances to accomplish our audit objective.

As part of our review, we evaluated the internal controls over payments to members of the
National Guard who were also police officers and the collection of license fees for use of the
Jackson Armory. The review disclosed that payments to National Guard members were in
accordance with existing Virgin Islands law. However, we found internal control
weaknesses related to the collection of lease fees, which are addressed in the Results of Audit
section of this report. Our recommendations, if implemented, should improve the controls
in these areas.

PRIOR AUDIT COVERAGE

The Offtce of Inspector General has not issued any prior audit reports on the Virgin Islands
National Guard. However, in August 1998, the Offrce of Inspector General, Federal
Emergency Management Agency (FEMA), issued an audit report (No. E-52-98) on its review
of disaster assistance funds awarded to the Virgin Islands National Guard as a result of

                                              2
Hurricane Marilyn. The report concluded that the National Guard used and accounted for
disaster assistance funds of $2.6 million in accordance with Federal regulations and FEMA
guidelines.

                              RESULTS OF AUDIT
Ten National Guard members who were also police offtcers received compensation of
$12,265 from the National Guard for time served on territorial active duty after Hurricane
Marilyn and also received compensation of $38,674 from their regularjobs as police officers
for periods during which they were also on duty with the National Guard. However, such
payments appear to have been in accordance with Virgin Islands law. We also found that the
National Guard needed to improve controls over the approval and collection of lease fees for
the nonmilitary use of the Lionel A. Jackson Armory. The legal provisions related to the
compensation of members of the Virgin Islands National Guard are contained in Title 23,
Section 1524, of the Virgin Islands Code, and requirements related to the use of military
property are defined in the license agreement between the Virgin Islands National Guard and
the Department of the Army, Army Regulation 700-I 3 1 (“Loan and Lease of Army
Materiel”), Virgin Islands Army National Guard Regulation 700-l 3 1 (“Loan and Lease of
Army Property”), and internal rules and regulations of the Virgin Islands National Guard.
The deficiencies related to lease fee collections occurred because there was inconsistency
within the requirements, personnel involved in the facility leasing program were not aware
of all of the requirements, and supervisory oversight of the individual who was responsible
for administering the program was inadequate. As a result, lease fees estimated of at least
$632 relating to Federally owned equipment were deposited into a bank account in the Virgin
Islands instead of being transferred to the Treasury of the United States.

Dual Compensation
The Virgin Islands National Guard was mobilized into territorial active duty by the
Governor on September 14,1995. Hurricane Marilyn struck the territory on September 15,
1995, causing significant damage to public and private property and resulting in a
Presidential disaster declaration. Based on our review, we determined that 10 (out of 37)
police officers who were also members of the National Guard were among the personnel
included in the territorial active duty mobilization. These 10 individuals received $12,265
in compensation from the National Guard for 912 hours of territorial active duty during
September through November 1995. They also received $38,674 in regular compensation
as police officers for pay periods during which they were also on duty with the National
Guard. However, the Government of the Virgin Islands interprets Title 23, Section 1524, of
the Virgin Islands Code as allowing such dual compensation by stating:

       (a) An officer or employee of the Government of the Virgin Islands, its
       agencies, authorities and public corporations, is entitled to leave without loss
       in pay, time or performance or efficiency rating for each day, not in excess of
       30 days in a calendar year in which he is on federal active duty, or training
       duty as a Reserve of the Armed Forces, or a member of the National Guard.


                                              3
        (b) An offker or employee of the Government of the Virgin Islands, its
        agencies, authorities and public corporations, is entitled to leave without loss
        in pay, time or performance or efficiency rating for each day in which he is
        on Territorial active military sen;ice.

At the December 22,1998, exit conference on the preliminary draft of this report, National
Guard offkials stated that it was National Guard policy for Government ofthe Virgin Islands
employees who are also National Guard members to be limited to 30 days of paid “military
leave” each calendar year regardless of whether that leave was used for Federal or territorial
active duty. However, because the 30&y limitation is not explicitly provided for in
Section 1524, subsection (b), of the Virgin Island Code, the offkials could not ensure that
all Government agencies were applying the 30-day limitation. Subsequent to the meeting,
we verified that none of the IO National Guard members who received dual compensation
after Hurricane Marilyn were on paid military leave for more than 30 days.

Based on our review, we determined that police offkers who were on territorial active
military service (referred to by National Guard personnel as “territorial active duty”) with the
National Guard were paid by the Police Department during the period of territorial active
duty as though they had been on regular full-time duty as police offkers. In addition, these
police officers were paid by the National Guard for the number of hours they served while
on territorial active duty. Compensation paid to members of the National Guard while on
territorial active duty is funded by the Government’s General Fund, as is regular
compensation paid to police officers. However, because the activation of the National Guard
during the period of September to November 1995 was due to a natural disaster that resulted
in a Presidential disaster declaration, FEMA reimbursed the Government for 90 percent of
the cost of activating the National Guard after Hurricane Marilyn.

National Guard officials told us that the activation of the National Guard after Hurricane
Marilyn could have been handled more effkiently. They said, for example, that in
subsequent hurricane-related activations of the National Guard, efforts were made to
minimize the extent to which essential Government employees (particularly law enforcement
officers) were among the National Guard members who were called to territorial active duty.
Additionally, in June 1996, the National Guard developed a Territorial Emergency Plan,
which provides that police officers and other essential Government employees would be
activated during such emergencies only if they have significant supervisory roles within the
National Guard.

Despite the subsequent efforts by National Guard offkials to minimize the extent to which
essential Government employees receive dual compensation during periods of territorial
active duty, we believe that Title 23, Section 1524, of the Virgin Islands Code should be
amended to limit military leave to a maximum of 30 days per calendar year. The existing
law results in excess costs to the Government and appears to benefit only one group of
National Guard members. With regard to private sector employees who are members of the
National Guard, Title 23, Section 1525, of the Virgin Islands Code states only that “a person
in the employ of a private employer shall, upon request, be granted a leave of absence by his
employer for the period required to perform Territorial Active Military Service” and that

                                               4
“[u]pon his release from that semicel . . . such employee shall be permitted to return to his
position with such seniority, status, pay grade and vacation as he would have if he had not
been absent for such purposes.”

Lease Fee Collections

The National Guard did not comply with existing rules and regulations for lease fees
collected for the nonmilitary use of Federal property at the Jackson Armory.

        Regulatory Requirements. The license agreement between the Virgin Islands
National Guard and the Department of the Army (a branch of the U.S. Department of
Defense) for National Guard use of the Federally owned Jackson Armory states that “the
licensee may, upon the concurrence of the Director, Army National Guard [Chief, National
Guard Bureau], issue licenses to nonprofit community service type activities under the same
conditions as permitted to active Army installation commanders by existing Army
regulations.” Army Regulation 700- 13 1 prohibits the loan or lease of military equipment for
purposes that include the following:

       (2) Events or activities that appear, directly or indirectly, to endorse, favor or
       selectively benefit private individuals, groups, commercial ventures, sects,
       political and fraternal groups, private or solely civilian religious or
       ideological movements, or activities or individuals associated with
       solicitation of votes in an election. . . .

       (3) Events that are not open to the general public, or where admission is
       charged for profit purposes.

       (4) Where the use of loaned or leased equipment would be in competition
       with commercial enterprise/deny the employment of civilians in their regular
       profession.

In addition, the unsigned and undated “Virgin Islands National Guard Rules for Rental
Program,” which, according to a National Guard officer, was prepared by the Virgin Islands
National Guard during 199 1 and adopted through practice by National Guard commanders,
states:

       Funds collected for use of the armory facility itself will not be co-mingled
       with funds collected for use of Federal property, such as tables, chairs, and
       other furnishings in the armories.

       With the exception of the few cases when groups such as veterans
       organizations and scouting groups apply to use the Armories, Federally
       owned furnishings should not be made available to users of the armories if
       the items are also available for rent in the civilian sector. By allowing these
       items to be used, the VI [Virgin Islands] National Guard is competing with
       local businesses in violation of AR 700- 13 1 and Federal law.

                                               5
        In the event that such . . . items are not a\-ailable [from commercial sources],
        fees for their use must be assessed which will reimburse the Federal
        government for “fair wear and tear.”

        The Board [Armory Board, as defined in the “Rules”] will direct all funds
        collected for use of the armory facility itself into an Armory Maintenance
        Fund. These fund [sic] will be used for minor repairs, beautification and
        similar projects at the armories. The Board will direct that all funds collected
        for use of Federally owned furnishings or other property will be by check,
        made payable to “Treasurer of the United States” and will forward these
        checks to the United States Property and Fiscal Office . . . .

These rules also provide that the Armory Board will establish rates for use of the armory and
property located within the facility. Finally, the “Rules for Rental Program” defines the
authorized users of the armory and Federally owned furnishings as follows: civic, military,
and nonprofit service organizations; hospitals and other charitable organizations; Federal,
state, or local government agencies; National Guard personnel for private nonprofit functions
such as weddings and family gatherings; and private individuals for noncommercial,
nonprofit activities.

Virgin Islands Army National Guard Regulation 700-13 1 was issued in April 1996 to
supersede “all other VIARNG [Virgin Islands Army National Guard] regulations” related to
the loan and lease of military property. The regulation defines the processing and approval
responsibilities of National Guard ofIicials with regard to requests for loan or lease of
military property from various segments of the local community. The types of requesters
specifically identified in the regulation are as follows: Army/Department of Defense
activities, other Federal agencies, and non-Federal agencies. The regulation also states,
“Leases will be made under fair monetary rental procedures based on prevailing commercial
rates.”

Lastly, the U.S. Property and Fiscal Ofticer for the Virgin Islands National Guard issued two
policy memoranda on the loan and lease of military property. In a May 15, 1996,
memorandum, the Officer reiterated the basic policies established in the “Rules for Rental
Program.” Specifically, the Officer stated that Federally owned furnishings in the Jackson
Armory could be leased to outside organizations for a fair market rental charge and that
payment for such rental should be by check made payable to the Treasurer of the United
States. However, the Officer further stated, “These provisions do not apply to the Armory
on St. Croix in that it is now supported by Federal funds for operation and maintenance.
This facility may not be used for any non-military purpose.” In a February 19, 1998,
memorandum, the U.S. Property and Fiscal Offrcer revised the provisions of Virgin Islands
Army National Guard Regulation 700- 13 1 and included, as Annex A, a price list for military
equipment that was available for lease, such as 8-foot-long banquet tables at $7 each, folding
chairs at $1 each, and tents at $250 to $300 each depending on size.

We believe that some inconsistency exists among the regulatory criteria discussed in the
preceding paragraphs as to what types of nonmilitary activities are acceptable uses of the

                                               6
Jackson Armory and the military property at the Armory. Specifically, although Army
Regulation 700- 13 1 appears to prohibit the use of military equipment for private activities
that are not open to the public and the Property and Fiscal Officer’s May 15, 1996,
memorandum specifically states that the Jackson Armory may not be used for nonmilitary
purposes, the “Rules for Rental Program” states that private nonprofit activities by National
Guard personnel and private individuals are acceptable uses of the Jackson Armory and
equipment within the Armory.            Further, Virgin Islands Army National Guard
Regulation 700-13 1 and the Property and Fiscal Offrcer’s February 1998 revision of that
regulation do not address the lease of military equipment to private individuals. Because
of this inconsistency, we believe that the Chief of the National Guard Bureau, Department
of the Army, should issue a formal opinion as to what constitutes “acceptable use” of the
Jackson Armory, other similar facilities, and Federally owned equipment under the control
of the Virgin Islands National Guard.

        Member Use. We found that 37 applications were filed for nonmilitary use of the
Jackson Armory on St. Croix and equipment located at the Armory during the period of
March 1995 to August 1998. Of the 37 applications, 20 applications were made by Federal
and local government, community service, or other nonprofit organizations that were not
charged for use of the facilities. The other 17 applications were made by members of the
National Guard as private individuals. Of the 17 applications made by National Guard
members, 7 individuals used the National Guard facilities and made appropriate payment of
lease fees totaling $1,170; 8 individuals did not use the National Guard facilities; and, as of
June 30, 1998, there was no record of payment of lease fees by the 2 other National Guard
members who had submitted applications.

        Fee Deposits and Controls. Although the “Rules for Rental Program” states that
funds collected for the use of Jackson Armory should not be commingled with funds
collected for the use of Federally owned equipment and that fees related to the rental of
equipment should be remit-ted to the Treasurer of the United States, the total amount of lease
fees of $1,170 was deposited into a local bank account known as the 104th Troop
Maintenance Fund. Because records at the Jackson Armory did not contain sufficient details,
we were unable to determine exactly what portion of the $1,170 was related to the rental of
the Jackson Armory and what portion was related to the rental of Federally owned
equipment. However, based on our review of the available records, we estimated that at least
$632 was for the rental of Federally owned equipment and therefore should have been
remitted to the Treasurer of the United States.

We also found that, although the “Rules for Rental Program” required the establishment of
an Armory Board, which, among other duties, would be responsible for establishing
appropriate lease fees, a Board was never established. Instead, prior to 1998, a flat fee of
$75 for the use of the Jackson Armory and its tables and chairs was established by the
National Guard officer who was responsible for administering the rental program. This same
individual also collected and deposited aI fees, maintained all records for the rental program,
and controlled expenditures from the bank account into whichthe collections were deposited.
We believe that this practice represented a significant internal control weakness which


                                              7
should be corrected through proper segregation of duties and that the operations of the rental
program should be subject to regular supervisory oversight.

We also noted that although separate fees had been charged for the use of the Jackson
Armory and for the use of equipment since 1998, collections were still commingled and were
deposited into the local bank account. Additionally, lessees were not given receipts at the
time of payment of the lease fees, and collections were not deposited in a timely manner. For
example, a collection made on November 9,1995, was not deposited until March 27, 1996,
and a collection made on February 14,1997, was not deposited until March 3,1997. Further,
the collections of $1,170 included $40 that was collected from an individual who was
allowed to use Federally owned tables and chairs without having submitted the required
rental application.

With regard to the 104th Troop Maintenance Fund into which the lease fees were deposited,
the “Rules for Rental Program” states that funds received for use of the Armory should be
used for maintenance and minor repairs. However, we found that funds deposited into this
account were used for special gifts (such as upon retirement) for National Guard members
and that, on one occasion, funds from the account were used to purchase meals for troops
who were on an overtime detail. In addition, the account was losing funds because of a
monthly bank service charge of $8.50.

In addition to the lack of segregation of duties related to the operation of the rental program
and the absence of regular supervisory oversight of the program, National Guard offtcials
told us that they were not aware of the existence of the “Rules for Rental Program.” Further,
we did not find any documentation to support that the May 15, 1998, policy memorandum
from the U.S. Property and Fiscal Offtcer was enforced by National Guard officials. At the
December 22, 1998, exit conference on the preliminary draft of this report, National Guard
officials stated that they had obtained copies of rental program policies used by other state
National Guard units and were revising the local policies and procedures. They said that they
expected the new guidelines to be completed by January 3 1, 1999.

Recommendations

We recommend that the Governor of the Virgin Islands:

        1. Submit to the Legislature proposed legislation to revise Title 23, Section 1524,
of the Virgin Islands Code to limit to a maximum of 30 days per calendar year the provisions
which allow Government of the Virgin Islands employees to receive dual compensation from
their employing agencies and from the National Guard during periods in which they are on
Federal or territorial active duty with the National Guard.

        2. Require the Adjutant General of the National Guard to review internal procedures
for the rental of National Guard armories, facilities, and equipment and implement revised
procedures that correspond with the general requirements of Army and National Guard
Regulations 700-I 3 1 and the recommended opinion from the Chief, National Guard Bureau
(see Recommendation 5). The revised procedures should include a clear description of the

                                              8
types of nonmilitary uses that are considered acceptable, a formal fee schedule for the rental
of various facilities and equipment, a description of the administrative and accounting duties
related to the rental program which provide an adequate level of segregation of duties, and
provisions for supervisory oversight of the rental program.

        3. Require the Adjutant General of the National Guard to account for the lease fee
collections in the 104th Troop Command Maintenance Fund and, consistent with the
recommended guidance from the Chief, National Guard Bureau (see Recommendation 5),
forward the appropriate portion of the funds to the Treasury of the United States.

      4. Direct the Adjutant General of the National Guard to consult with officials of the
banking institution to determine the feasibility of having the 104th Maintenance Bank
Account exempted from monthly bank service charges.

        5. Request from the National Guard Bureau, Department of the Army, a formal
opinion as to what constitutes “acceptable use” of the Lionel A. Jackson Armory, other
similar facilities, and Federally owned equipment under the control of the Virgin Islands
National Guard and guidance as to how lease fees collected for the use of Federally owned
National Guard facilities and equipment in the Virgin Islands should be processed and
accounted for.

Virgin Islands National Guard Response and Offke of Inspector General
Reply
In its March 8, 1999, response (Appendix 2) to the draft report, the Virgin Islands National
Guard presented an alternative action for Recommendation 1 and concurred with
Recommendations 2,3, and 4. Based on the response, we consider Recommendations 1,2,
and 3 resolved but not implemented and Recommendation 4 resolved and implemented.
Accordingly, the unimplemented recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation. Regarding
Recommendation 5, which was initially addressed to the Chief, National Guard Bureau, we
request that the Governor obtain an opinion on the use of armory facilities. (See
Appendix 3 .)

Recommendation 1. Nonconcurrence.

        Virgin Islands National Guard Response. The Virgin Islands National Guard
stated that the recommendation “needs to clarify whether the [recommended limitation of]
30 days per calendar year apply to both Federal and Territorial active duty combined or 30
days federal and 30 days territorial active duty. . . . The National Guard recommends 30 days
for federal military service and a separate 30 days for TAD [territorial active duty].
Employees who have exhausted the 30 days TAD with pay will have the option to use
accumulated annual leave or leave without pay.”

         Offke of Inspector General Reply. The original intent of Recommendation 1 was
to limit paid active duty in the National Guard to a combined total of 30 days for Federal and


                                              9
territorial active duty. This recommended limitation was based on discussions that occurred
during the December 22, 1998, exit conference on the preliminary draft of this report (see
page 4), during which National Guard offtcials stated that it was National Guard policy for
Government of the Virgin Islands employees to be allowed 30 days of paid “military leave”
each calendar year regardless of whether that leave was used for Federal or territorial active
duty. However, in view of the justification presented in the response, we accept the National
Guard’s suggested alternative ofhaving separate 30&y limitations for Federal and territorial
active duty.

The InsFctor General Act, Public Law 94-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response to this report by April 30, 1999. The
response should provide the information requested in Appendix 3 and be addressed to our
Caribbean Field Offke, Federal Building - Room 207, Charlotte Amalie, Virgin Islands
00802.

We appreciate the assistance of the management and staff of the Division of Personnel in the
conduct of our audit.




                                               Eljay B: Bowron
                                               Inspector General

cc: Major General Jean A. Romney,
       Virgin Islands Adjutant General




                                             10
                                                    APPENDIX 1


              CLASSIFICATION OF MONETARY AMOUNTS

                                               Funds To Be Put
                Finding Area                    To Better Use

        Dual Compensation                         $12,265 *

        Lease Fee Collections                         632 **

              Total                               $12.897




* The amount represents local funds.
** The amount represents Federal funds.




                                          11
                                               APPENDIX 2
                                               Page 1 of Z

HEADWARTIER MROIW !8lAND8 NAl#INAL itJlf;ARD
      4031 LA JVIANDE PRINCE6SE;UM’lB
         CH~I3TIANSTBD, WI O[D820_113E3




                      12
                   APPENDIX 2
                   Page 2 of 2




chitfiof staft ’




       13
                                                                        APPENDIX 3


        STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference            Status                   Action Required

      1,2,and3           Resolved;      No further response to the Office of
                         not            Inspector General is required. The
                         implemented.   recommendations will be referred to the
                                        Assistant Secretary for Policy, Management
                                        and Budget for tracking of implementation.

          4              Implemented.   No hrther action is required.

          5              Unresolved.    Respond to the revised recommendation,
                                        and provide a plan identifjling actions to be
                                        taken, a target date for implementation, and
                                        the title of the offhkl responsible for
                                        implementation. If nonconcurrence is
                                        indicated, provide specific reasons for the
                                        nonconcurrence.




                                        14
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U . S. Department of the Interior                       Our 24hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 2085300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 2082420 or
                                                        1-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U. S . Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (671) 6476060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
                  .




:
m
      Toll Free Numbers:
:      l-800-424-5081
:      TDD l-800-354-0996
:
:
:
      FTSKommercid Numbers:
:      (202) 208-5300
:      TDD (202) 208-2420
:
:
:
:
        HOTLINE
:     1849 C Street, N.W.
:
      Mail stop 5341
 3    Washington, D.C. 20240
 :
 :
 :
 :
 :
*:
 :
 :
m
 :
 ?r . . . . ..d
